O'

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Motion for Leave to Proceed In Forma
Pauperis and Petition for Writ of Certiorari in Charles
Ahumada v. United States of America, was sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day service and e-mail to the
following parties listed below, this 6th day of May,
2021:
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
Steven R. Morrison
Counsel of Record
The Morrison Law Practice
1526 Robertson Ct.
Grand Forks, North Dakota 58201
(617) 749-7817
steven.r.morrison@gmail.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

www.beckergallagher.com

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 6, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Mfiant on the date below designated.
Date:

~ d. r; , dO d-· f

cJv&t, /8,

Notary Public

JS~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Explres
February 14, 2023

